                                                       ADVISORY




    RECOVERY OVERSIGHT ADVISORY

    Bureau of Land Management (BLM) Renewable Energy
    Recovery Act Projects




Report No.: ROO-ROA-BLM-3003-2010                      May 7, 2010
solar [energy]…(e.g., renewable energy zones)”1 and, “establishing clear policy direction for
authorizing the development of solar energy on public lands.”2

        BLM received $320 million in Recovery Act funding and subsequently allocated
approximately $41 million of those funds to their Renewable Energy Program for 64 projects. As
part of their Recovery Act Program Plan, the bureau proposed to use the funds “to support the
NEPA [National Environmental Policy Act] requirements and other associated studies to
establish Federal Renewable Energy Zones and lay the foundation for a more proactive and
forward-thinking renewable energy program.” Specifically, $13 million was allocated to a Solar
PEIS project. The remaining $28 million was reserved for other studies, including:

            Land Reuse                        ($1.7 million)
            Wildlife/Ecological Assessments   ($3.25 million)
            Cultural/Paleo Studies            ($0.745 million)
            Visual Resources                  ($2.39 million)
            Technical Support                 ($0.615 million)
            Case Records (LR2000)             ($8.6 million)
            Lands Status (GIS/GCDB)           ($10.7 million)

         The Solar PEIS, case records, and lands status projects comprise nearly 80 percent ($32.3
million) of the $41 million Recovery Act funds BLM has dedicated to renewable energy
projects. As of March 2010, the bureau had obligated approximately $18.2 million toward these
efforts.

Observations

Lands Status and Case Records Projects

      The lands status and case records projects comprise almost half ($19.3 million) of BLM’s
Recovery Act funds for renewable energy projects. The primary goal of these projects is to
improve the quality of lands status records associated with the solar energy study areas identified
in the Solar PEIS. Most of the projects are awarded under an Indefinite-Delivery/Indefinite-
Quantity (IDIQ) contract and are managed centrally at the NOC.

       According to a BLM official, much of BLM’s lands status data and case records
information generally do not meet current national mapping accuracy standards, complicating the
permit application process for potential renewable energy developers and other applicants.
Consequently, ensuring accurate, updated data and information is the cornerstone of any BLM
initiative involving land applications. These Recovery Act projects have accelerated BLM’s
efforts to update lands status data and case records through an active contract vehicle that could
be used for additional updates applicable to land uses besides renewable energy development.




1
    SO No. 3285, § 5a(2).
2
    SO No. 3285, § 5c.

                                                                                                  2
Programmatic Solar Energy Environmental Impact Statement Methodology

        BLM’s primary purpose for conducting PEISs is to assess, on a very broad scale, the
environmental impacts associated with utility-scale renewable energy development on public
lands. The goal of such efforts is to streamline the application process for potential developers by
reducing their effort and costs associated with subsequent environmental reviews needed prior to
development. In the past, BLM has partnered with DOE and ANL to conduct PEISs for wind and
geothermal energy development and for transmission corridors. According to BLM officials,
however, these assessments, particularly the wind energy PEIS, were too broad in scope,
resulting in little savings for developers.

        In 2008, the bureau again partnered with DOE and ANL to begin work on a Solar PEIS.
A year later, with the receipt of Recovery Act funds and the issuance of SO No. 3285, BLM
dedicated $13 million to the PEIS effort and increased the scope of the project significantly.
Twenty-four specific study areas were identified for assessment of the potential for development
of five solar technologies.3 BLM officials, the DOE Solar Energy Team lead, and ANL officials
told us that this new level of detail, which had been absent from previous studies, will go further
in reducing analysis requirements previously borne by applicants and more effectively streamline
the application process for future solar energy developers. All parties agreed that this new
approach would serve as a model for future PEISs.

Transparency and Cost Tracking of the Solar PEIS

        While we were impressed with BLM’s more detailed approach to conducting the Solar
PEIS compared with past PEISs, we have concerns about the transparency and cost tracking of
the effort, especially in light of the Recovery Act’s heightened transparency and reporting
requirements. According to BLM’s December 31, 2009 project list, there are 13 separate $1
million PEISs across six western states.4 In actuality, there is only one $13 million Solar PEIS
effort centrally managed from the Washington office. This project consists of four separate
projects: a visual resource management inventory and analysis contract (VRI) ($1.5 million); a
Cultural Survey contract ($1 million); a contract to prepare a biological assessment ($0.6
million); and an interagency agreement with ANL to conduct an environmental impact statement
and record of decision (EIS & ROD) ($9.9 million).5

        The EIS & ROD covers 24 study sites in 13 regional areas. Each regional area is
represented as a separate PEIS project on BLM’s Recovery Act project list. Despite several other
similar but non-solar related studies shown on BLM’s project list, the VRI, cultural survey, and
biological assessment projects associated with the Solar PEIS are not reflected on BLM’s list.
Rather, they are subsumed under the 13 reported PEIS projects with cost estimates shown as
evenly allocated. Furthermore, current outlays for the effort are also displayed as mostly evenly
distributed across the regional areas and do not appear to be tracked by study site or state.


3
  The five technologies are Parabolic Trough, Power Tower, Solar Dish, Flat Panel Photovoltaic, and Concentrating Photovoltaic. 

4
  The six western states are Arizona, California, Colorado, Nevada, New Mexico, and Utah (added later).

5
  Argonne National Laboratory was awarded an interagency agreement to conduct the EIS and ROD in September 2009. The VRI

was issued as a task order on an already existing IDIQ contract. An additional $0.7 million was recently added to the project due 

to an unanticipated change in scope. The Cultural Survey and Biological Assessments have not yet been awarded.


                                                                                                                                3
         We are concerned that BLM’s decision to track their centrally managed Solar PEIS effort
as 13 separate projects with evenly distributed costs obscures the various components of the
effort from public scrutiny, complicates project reporting requirements for the bureau, and
potentially leaves the bureau open to the risk of cost overruns.

cc: 	   Deputy Secretary, Department of the Interior
        Director, Bureau of Land Management
        Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office Environmental Policy and Compliance
        Acting Director, Office of Financial Management
        Recovery Coordinator, Bureau of Land Management
        Renewable Energy Team Lead, Bureau of Land Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, Bureau of Land Management




                                                                                               4
